No. 18A1168
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, APPLICANT
v.
MICHAEL J.D. BRIGGS
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION FOR A FURTHER EXTENSION OF TIME WITHIN WHICH TO
FILE A PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE ARMED FORCES, via email and first-class mail, postage
prepaid, this 11th day of June, 2019.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
June 11, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

18A1168
UNITED STATES OF AMERICA
MICHAEL J.D. BRIGGS
STEVEN I. VLADECK
727 EAST DEAN KEETON STREET
AUSTIN, TX 78705
SVLADECK@LAW.UTEXAS.EDU
MAJ. JOHNATHAN LEGG
FAIRCHILD HALL
ROOM 6H-194
US AIR FORCE ACADEMY, CO 80840
JOHNATHAN.LEGG@USAFA.EDU
TERRI ZIMMERMAN
770 S. POST OAK LANE
SUITE 620
HOUSTON, TX 77056
TERRI.ZIMMERMAN@ZLZSLAW.COM

